No.
In the Supreme Court of the United States

JUAN E. SEARY-COLON, A/K/A RICKY DIABLO,
PETITIONER,
v.
UNITED STATES,
RESPONDENT.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Juan E. Seary-Colon herein hereby very respectfully requests leave
to file the enclosed petition for writ of certiorari without prepayment of costs, to
proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in
the following courts: (1) The U.S. District Court for the District of Puerto Rico; and
(2) The U.S. Court of Appeals for the First Circuit.
Petitioner has previously been assigned counsel under the guidelines of
Criminal Justice Act of 1964 pursuant to 18 U.S.C. § 3006A and as a consequence,
no affidavit or declaration in support of this motion has been thereof included
pursuant to Rule 39(1) of the Rules of the Supreme Court.

1

RESPECTFULLY SUBMITTED.
In San Juan, Puerto Rico, this 1st day of June, 2021.

/s/ Johnny Rivera-González
Johnny Rivera-González, Esq.
U.S.C.A. - First Cir. Bar No. 43285
U.S.D.C. - P.R. Bar No. 207710
P.O. Box 192397
San Juan, P.R. 00919-2397
Tel. No. (787) 470-4986
E-Mail: goodjrg@gmail.com
CERTIFICATE OF SERVICE: I hereby certify that on today’s date I
electronically filed the foregoing with the Clerk’s of the Court using the U.S.
Supreme Court CM/ECF system which will automatically send notification of such
filing to all the parties of interest and record.
In San Juan, Puerto Rico, this 1st day of June, 2021.

/s/ Johnny Rivera-González
Johnny Rivera-González, Esq.

2

